     Department of Health and Human 
                           Servces
                     OFFICE OF
                INSPECTOR GENERA
-J




     OIG OVERSIGHT OF FDA ACTIVITIES:

           A SUMMARY REPORT





                                              Richard P. Kusserow
                                              INSPECfOR GENERA

                                        cIa       JANARY 199
                        OFFCE OF INSPECTOR GENRA

The mission of the Offce of Inpector General (OIG), as mandated by Public Law 95-452 , as
amended , is to protect the integrty of the Departent of Health and Human Servce ' (HHS)
programs as well as the health and welfare of beneficiaries seNed by those programs.
statutory mision is carred out through a nationwide network of audits , investigations, and
inspections conducted by three OIG operatig components: the Offce of Audit Servce , the


correCt them.
Offce of Investigations, and the Offce of Evaluation and Inpections. The OIG alo inorm
the Secretary of HHS of program , and management problems, and recmmends coures to


                            OFFCE OF AUDIT SERVICE
The OIG' s Offce of Audit Servce (OAS) provides all auditing servce for HHS , either by
conducting audits with its own audit resource or by overseeing audit work done by others.
Audits examie the performance of HHS programs and/or its grantee and contractors in
carrg out their respetive responsibilties and are intended to provde independent
assesments of HHS program and operations in order to reduce waste, abuse, and
mismanagement and to promote ecnomy and effciency throughout the Departent.

                            OFFCE OF INTIGATIONS
The OIG' s Offce of Investigations    (01) conducts crial ci, and dmini tratie
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiares and of
unjust enrichment by providers. The investigative effort of 01 lead to  crial  convictions,
administrative sanctions, or civi money penalties. The 01 also oversee State Medcad fraud
control units which investigate and prosecute fraud and patient abuse in the Medcad program.

                 OFFCE OF EVALUATION AN INSPECfONS
The OIG' s   Offce of Evaluation and   Inpetions (OEI conduct short-term management and
program evaluations (called inpetions)    that focus on isues of concern to the Deparent,
the Congress ,   and the public. The fidigs   and   recmmendations contaed in these inpection
report generate rapid , accurate , and up-to-date inormation on the effciency, vulnerabilty,
and effectiveness of departmental programs.

Th report was prepared under the direction of Emie Baebel, Chief, Public Health and
Human Servce Branch. Participating in      thi project were the followig people:


Penny R. Thompson
Mary Beth Clarke, R.Ph.
Department of Health and Human Servces

        OFFICE OF

   INSPECTOR GENERA





OIG OVERSIGHT OF FDA ACTIVITIES:

      A SUMMARY REPORT





                Richard P. Kusserow
                INSPECfOR GENERA

      '~cIa         OEI- 12-   92-0
                 EXECUTIVE SUMMAR 

PUROSE
This summary report provides inormation on the oversight activities of the Offce of
Inspector General (DIG) in connection with the Food and Drug Admstration
(FDA). It discusses five major management chalenges facing FDA which have been
identied through DIG audits , investigations , and inspections , and DIG
recommendations for improvement.

BACKGROUN
The FDA is responsible for regulatig a wide array of products , including most of the
nation s food supply, human and veteriar drugs , cosmetics , medical devices , and
blood ban. Though product approval activties , FDA ensures that drgs and
devices are safe and effective for their intended uses before they are. marketed to the
nation s consumers. Though surveilance and monitorig actties, FDA ensures that
standards are met in the day-to-day processing, manufactug, and handlg of
products it reguates.

The Offce of Inspector General (OIG) is charged with preventig and detectig fraud
waste , and abuse , and promoting effectveness and effciency in the Deparent'
programs , including FDA. The DIG conducts and supervses audits , investigations
and evaluations related to the Department s programs , identifes systematic
weaknesses givig rise to opportunties for fraud and abuse , and makes
recommendations to strengthen management systems and to promote effectveness
and effciency.

ISUE
Over the past several years OIG audits , investigations , and evaluations in FDA have
identifed several common problems which FDA management must address. These
include the need to

      restore integrty to FDA' s product approval process;

      vigorously detect and investigate potential fraud and abuse;

      invigorate FDA' s inspections of manufacturig and processing facilties;

      ensure that FDA can respond to individuals and businesses out of compliance
      with the Food , Drug, and Cosmetic Act; and

      create and use reliable data management systems.
These problems are widely recognized. In addition to the DIG' s discussion of these
problems , the Advisory Committee on the Food and Drug Admistration (the
Edwards Commission) discussed them at some length in its final report , and the
Commissioner of Food and Drugs has discussed the challenge of addressing these
issues in public statements and testiony   before the Congress.

CONCLUSIONS

The issues and conclusions in this report sumarie those presented in greater deta
in previously released DIG report. The issues here highght the major areas
requiring attention. The conclusions sumari more detailed recommendations in
the individual report. The OIG is monitorig FDA' s effort to implement the
recommendations found in the origial report. In general, we believe FDA must aCt


      improve its product approval systems     to ensure equitable and fai treatment of
      applicats, includig the development of "first-in      fist-out" policies   , and
      standard operatig    procedures and    gudelies for reviewers;
      obtai necessary enforcement authorities, such as embargo authority, subpoena
      authority, and civi monetary penalty authority, and use those authorities to
      encourage compliance with the Food , Drug, and Cosmetic Act and punsh
      violators;

      conduct appropriate systems analysis to ensure that usefu inormation systems

      are in place to provide FDA management with necessar inormation to track


      inormation;
      workload and workfow, and to ensure that inormation being obtained from
      regulated industries meets FDA monitorig needs for tiely, accurate


      identif resource needs , delegatig authorities to the States where appropriate
      and relyig on user  fees to supplement budget authority and augment
      resources , where necessar; and

      develop a fu-scale   crial investigative capabilty with trained, experienced
      investigators.

We believe that these steps are essential if FDA is to meet its numerous statutory
responsibilties and meet the challenges    of the   comig decade.
                                    .................................
       .............................................
            . . ............... ...... .....
                                       ....
                    .. .. .. .. .. .. ..           . .........................
                                       . . . . . .....................
                                  ...........
                                         .. .. .. ...  . . . . . . . . . . . . . . . . . .....
                                                                                         ......
                                                  .. .. .. .. .. . . . . . . . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. . .




                 TABLE OF CONTENTS

EXCU SUMY

INODUCION . 

ISUE                                                                                                                     ............3
  Integrty of product approv                  pro                                                                                      .......3
  Detecon of mud and ab1l .                                                                                                                          . . 5


  Improvement of inons                     proc
  Compliance   wi the Foo Dr                           and Coetic                    Ac . . . . . . . . . . . . . . . . . . . . . 8
  Use of relible data, sytems. . . .
CONCLUSIONS

APPENIX. .                                                                                                            . . . . . . . . . .. A­
                         INTRODUCTION

PUROSE
This summary report provides inormation on the oversight activities of the Dffce of
Inspector General (OIG) in connection with the Food and Drug Admistration
(FDA). It discusses five major management chalenges facing the FDA which have
been identied through OIG audits , investigations , and inspections , and OIG
recommendations for improvement.

BACKGROUN
The FDA is responsible for reguating a wide array of products, includig most of the
nation s food supply, human and veteriary drugs , cosmetics , medical  evices, and
blood bank. Though product approval actities , FDA ensures that drgs and
devices are safe and effectie for their intended uses before they are marketed to the
nation s consumers. Though surveilance and monitorig actities , FDA ensures that
standards are met in the day-to-day processing, manufactg, and handlg of
products it regulates.

To accomplish its mission , FDA has a budget of alost $700 mion (Fiscal Year
1991). Over 5 000 staff are distributed among the Center for Drug Evaluation and
Research , the Center for Food Safety and Applied Nutrtion, the Center for Biologics
Evaluation and Research, the Center for Devices and Radiological Health, and the
Center for Veterinary Medicine in FDA headquarers. A field force composed of
almost 2, 500 persons organed in 6 regions and 21 distrct offces inspect and
monitors facilties such as food warehouses, blood ban , and drug and device
manufacturers.

The Offce of Inspector General (010) is charged with preventig and detectg fraud
waste , and abuse , and promoting effectiveness and effciency in the Deparent'
programs , including FDA. The DIG conducts and supervses audits, investigations
and evaluations related to the Departent' s programs , identies systematic
weaknesses givig rise to opportunities for fraud and abuse , and makes
recommendations to strengten management systems and to promote effectiveness
and effciency.

Over the past several years DIG audits , investigations , and evaluations in FDA have

include the need to 

identified several common problems which FDA management must address. These


      restore integrty to FDA' s product approval process

      vigorously de ect and investigate potential fraud and abuse
      invigorate FDA' s inspections of manufacturing and processing facilties

      ensure that FDA can respond to individuals and businesses out of compliance
      with the act, and

      create and use reliable data management systems.

These problems are widely recognd. In addition to the DIG' s discussion of these
problems, the Advisory Commttee on the Food and Drug Admistration (the
Edwards Commssion) discussed them at some length in its fial report , and the
Commissioner of Food and Drugs has discussed the challenge of addressing these
issues in public statements and testimony before the Congress.

The issues and conclusions in this report summarie those presented in greater detail
in previously released DIG report. The fidigs here highght the major areas
requirg attention. The recommendations sumare more detaied
recommendations in the indidual report. The OIG is monitorig FDA' s effort to
implement the recommendations found in the   origial report.
                   , "




                                    ISSUES

TH FDA      NES TO RERE INRI                        TO IT PRODUcr APPROVAL
PROC.
The Edwards Commission noted in its fial report that li the generic drg scandal
exposed the agency s vulnerabilty to fraudulent data (and) improper inducements. III
Our work in investigatig the generic drg scandal , as well as audits we have
conducted documentig inadequate internal controls in the drug approval process and
the medical device 510(k) process , lead us to conclude that ensurg integrty
product approval is of the utmost importance and warrants continued scrutiny.

Gen Dr Sca
Over the past 3 years , the generic drg industry has been rocked by a series of
prosecutions resultig from OIG investigations. The prosecutions have occured
two phases: a corrption phase , which involved generic drg companes
                              , and a fraud and false statements phase , in
                                                                           gig
                                                                            which
                                                                                  ilegal
                                                                                  the
gratuities to FDA employees
companes engaged in various deceptions regardig testig and manufacturg their
products.

Prosecutions are completed on corrption    charges resultig from these investigations.
Over a 2-year period , three generic drug companes , five company offcials , one
industry consultant , and five FDA employees were convicted and sentenced in ths
phase , in which companies paid to receive favorable processing of their generic
equivalents.

In the second round of prosecutions on charges of fraud , false statements , and
manufacturig malpractce , two companes have been sentenced for obstrctig an
FDA investigation into iregularties in the bioequialency testig required for generic
drug approval. A major generic drg company was fied $10 mion, plus $380 000 to
defer the cost of the OIG and FDA investigations , for substitutig a brand name
product for the company s generic product in testig for bioequialency. The
laboratory which conducted the tests was fied $200 000 for its part in the deception
which included replacing the brand name product with the generic when FDA
investigators arrved on the scene. One company offcial was sentenced to 2 years and
2 months in jail for making these statements to FDA An additional 13 company
representatives and 2 laboratory representatives have been charged.

Afer these revelations , the OIG embarked on a joint effort with the FDA to provide
bribery awareness trainig to its employees. We hope that this traing wi help


    Adviory Committee on the Food and Drug Administration, U. S. Department of Health
and Human Servces Final Report of the Advisory Committee on the Food and Drug
Administration " May 1991 , p. 25.
                                   , "




restore integrty to all the approval processes performed by the FDA by heightening
FDA employee sensitivity to the fiancial impact of their day-to- day decisions and
regulatory activities.

LDck of   Intl Contls in Pr                Apprval
An OIG audit of FDA' s generic drug approval process identifed systemic weaknesses
in conducting and managig reviews which alowed fraud and abuse to occur, includig
the lack of guidelies and standard operating procedures to ensure the consistent
review of applications , and the lack of a "first-in, fist-out" review policy. 2 The lack of
consistency and standard operatig procedures in reviewig Abbreviated New Drug
Applications (ANAs) was also a priary concern expressed by generic drug
manufacturers in a series of intervews we conducted in 1990 to assess the perspecties
of industry on FDA' s generic drug approval process.

Problems of this kid continue to plague the Offce of Generic Drugs. Recently, the
OIG has documented serious problems with FDA' s review of drg master fies
(DMFs) in approvig ANAs. These drug master fies provide important inormation
on the facilties , processes , or articles used in manufacturg, processing, packagig,
and storig drugs or drug ingredients. Our audit documented that no policies or
procedures are in place at FDA to requie review of DMFs. As a result, some FDA
chemists always review DMFs which are referenced in an ANA; others rely on
previous reviews of DMFs conducted by other chemists in connection with a prior
ANDA; and stil others do neither. Without such DMF reviews, FDA caot ensure
that generic drug ingredients are safe and effective.

The lack of internal controls to ensure that product applications are reviewed and
approved in accordance with accepted policies and procedures is an FDA-wide
problem. Some of these same weakesses were also identied in our audit of FDA'
SlO(k) process, through which device manufacturers noti FDA of their intent to
market a medical devi e. In this audit , we documented FDA' s lack of procedures to
sequence reviews and document decisions to ensure tiely,         fai, and complete S10(k)
evaluations. We also found that FDA lacks a comprehensive qualty control system to




    0ffce of Inpector General ,      "Vulnerabilties in the Food and Drug Admtration
Generic Drug Approval Proces " A- 15-89-0051 , Augut 1989.

    0ffce of Inspector General Perspectives of Drug Manufacturers: Abbreviated New
Drug Applications, " OEI- 12- 90- 00770 , February 1990; Offce of Inpector General
Perspectives of Drug Manufacturers: Investigational New Drug and New Drug Applications
OEI- 12-09-0771 , February 199.

    0ffce of Inspector General Evaluation of Drug Master File Reviews by the Food and
Drug Administration " A- 15- 90-         , July 1991.
                                , "




evaluate and critique the adequacy of manufacturer submissions , or a management
information system that tracks reviewer workload and productivity.

In recognition of the common vulnerabilties in all of FDA' s product approval
activities , internal control weakesses were characteried as a FDA-wide problem in
the Department s 1990 Federal Manager s Financial Integrty Act report. We are now
conducting an audit to determe what actions FDA has taken to recti problems we
identified in the ANA review process and plan future follow-ups in other product
review areas.

To correct these deficiencies , FDA must establish a system of strict accountabilty in
which procedures and policies are in place regardig product approval and
management ensures staff adherence to those policies and procedures. One way FDA
management can accomplish this is through the use of data systems which track
activities and results , a subject discussed in more detail later in this report.

TI FDA       NES TO VIGOROUSLY DET AN INGAff
POTE FRUD AN ABUSE
The generic drg scandal brought to light the importance of strengtenig fraud and
abuse detection among reguated industry and FDA employees. The OIG contiues
to have reservations about FDA' s abilty to conduct   crial   investigations due to a
lack of trained , experienced investigators. We are also concerned about the lack of
close coordination between FDA and the U. S. Attorney s offce when      crial   activity
is first alleged.

Rev of th FDA Dever Di Of
The Subcommttee on Oversight and Investigations , Commttee on Energy and
Commerce , U. S. House of Representaties , has expressed concern regardig some
generic drug investigations which were conducted by FDA, involvg possible
fraudulent statements provided durig the ANA approval process. At the
Subcommttee s request , we conducted a review to assess the FDA Denver Distrct
Offce s abilty to detect and investigate possible fraud in the ANA approval process.
We determed that inspectors in the FDA' s Denver Distrct Offce failed to identi
fraud durig the course of one of the generic drug company inspections because they
lacked the requisite experience and traing. As a result, they faied to request and
review the pertinent documents from which fraud was eventually disclosed.




    0ffce of Inpector General    Internal Control Weaknesses in the Food and Drug
Administration s Medical Device 510(k) Proces " A- 15-89- 005 , July 199.
Rev of th FDA Or Di Of
The Subcommittee on Oversight and Investigations also asked the OIG to examie the
activities of the Orlando District Offce and comment on that offce s activities to
detect , investigate , and prosecute ilegal drug diversion. From a review of the
allegations received and investigations undertaken by the Orlando District Offce , we
are concerned about the resources and investigative methods employed to address
Prescription Drug Marketig Act violations in South Florida. The Orlando District
Offce does not have the resources to devote the time necessary to address ths
persistent tye of    crial actity. In addition , normal FDA inspection processes have
not proven successful in detectg and investigatig these cries. Traied           crial
investigators employig traditional law enforcement methods rather than FDA
inspection activities are necessary to adequately pursue these cries.

Cordn wi th U.S. Atrn
Another signcant problem which we        have identied in reviewig     and   assessing FDA
crinal investigations is that the investigatie process is insulated from the
prosecutorial process. It is our position that when   cral   actties are intialy
alleged , FDA should consult imediately with the U. S. Attorney s offce. FDA should
then proceed with its  crial   investigation under the diection of the U.S. Attorney
offce , in order that any prosecution waranted by the fact wi be succssfu.

TH FDA      NES TO INGORA1E IT INSPECONS                         OF
MAACfG AN                     PROCING          FACI.
Another signficant outcome of our ongoing work in investigatig the generic drg
scandal was to document the importce of FDA sureilance and inspection actity.
A generic drg   fi    offcial we intervewed in 199 put it bluntly: " (FA sta do not
go to laboratories or plants as part of their review. They underutie their field      sta
one of their best assets. " Yet FDA field offces are vialy inundated with mandates
and responsibilties , and their priorities are often to deal with the latest crsis at the
expense of routine monitorig. The Edwards Commssion sumed up the problem
well: "Too often, staffg litations shape FDA's inspection decisions. " In several
reports , we have documented the effects of this resource squeeze and suggested
various ways of addressing it. In October of 1990 ,   FDA instituted new policies
regarding the use of field inspection staf as par of the ANA approval process.
Inspection records are veried and a plant inspection is conducted if one has not been
performed within the past 2 years prior to approvig the application by FDA

Insctins of Medal Deve         Fir
In a recent study, we found that FDA is not meeting its biennal good manufacturig
practices (GMP) inspection requirement for medical device fis. An internal FDA
review found that , between 1981 and 1987 , half of all fis FDA inspected for
compliance with GMP requirements were not reinspected withi 24 months. We also
                                    , "




 documented that as of August 1988, 19 percent of all active class II and III device
                   never been inspected. According to district offce offcials
 manufacturers had 


 understaffing, combined with the need to respond to various public health crises on
 foods , blood bank , as well as drugs and devices , leaves FDA unable to meet all of its
 regulatory responsibilties.

 Insctins of Low-Rik          Foo   Fir
 Although FDA believes that the potential exists for serious problems with low-risk

 food fis , it assigns a low priority to these inspections. In 1989 , FDA planned to

 conduct over 14 000 food safety inspections; it conducted only 54 percent of them

 because of other priorities and lack of resources. In addition, not all food     fis
                                                                                   are

 known to FDA or state inspectors; these fis may never be inspected.


 In a recent report, the OIG has recommended completely reorientig the way FDA
 conducts food inspections. We believe that FDA should delegate low-rik food
 inspection authority to the States and concentrate its effort on stadard settg and
 other monitorig activities. We have recommended that FDA (1) design a unorm
 system that ensures both a sytematic identifcation of al food fis and inspection
 results; (2) develop requiements for      low-risk   food safety inspectons and certif which
 States meet these requirements; (3) alow certed States to conduct inspections of
 low-risk       fis (conductig its own inspectons only in those States which are not

  certifed); (4) seek legislation to provide inspectors with the enforcement tools

  necessary to do their job effectively; and (5) collect an inspection user fee from 

, food    fis to fund low-risk food safety inspections of both FDA and the States that
  meet FDA' s certifcation requiements. In ths kid of system, FDA ca target its
  scarce inspection resources to drug and device facilties , and concentrate its food
  safety work on monitorig States ' activities and providig technca assistance and
  coordination.

 FDA has indicated its support of the general priciples we espoused. A subsequent
 survey of 10 States revealed that considerable support exists in the States for such a
 system. The key to cooperation from the States is that the user fees collected by FDA
 be used to support their activities.




     0ffce of Inspector General FDA Medical Device Regulation: From Premarket Revew
 to Recall " OEI-09-90- 000 , February 1991.

        0ffice of Inspector General FDA Food Safety Inpection, " OEI- 05-90-01070 , Augut
 1991.
User Fee

User fees may be one answer to FDA' s resource squeeze. We believe that user fees
properly structured , could help aleviate staffg and resource diffculties in other areas
of FDA. User fee systems supportg application review and approval and inspectons
in other Federal regulatory agencies (including the Nuclear Reguatory Commssion
the Federal Communications Commssion, the Envionmental Protection Agency, and
the Federal Energy Regulatory Commssion), have met with some success.

The OIG has assessed the applicabilty of user fee systems to FDA We concluded
that FDA user fees represent a legitimate method of recoverig reguatory costs.
Although there are many ways of structurg a user fee system at FDA-a hybrid
system of annual registration charges and processing fees for applications and
inspections might be most workable--imposition of such fees would be consistent with
principles upheld in other Federal agencies: that regulation provides benefits to the
regulated , and that those who benefit from the agency s activities ought to be requied
to P!iY for them.

'T FDA MUST BE ABLE TO REPOND TO INIVUAL                                 AN
BUSJNES our OF COMPUACE WI TH Acr.
Once violators are identifed , FDA must have the necessar authority to tae
appropriate action. Our 1990 work on medical devices, referenced earlier, provided
information to the Congress that was useful in developing the Safe Medica Device
Act of 1990. Until this act was passed , FDA lacked authority to impose civi money
penalties on medical device fis. Furthermore , as our work in food safety has
documented , the agency lacks the power to embargo products such as suspected
adulterated foodstus, even though al States have such powers. Thus , FDA depends
on States to effect an embargo to prevent potentialy hazdous foods from being
marketed.

Businesses are also   begig to test the boundares of the Federal Food, Drug, and
Cosmetic Act. One area in which this appears to be especially true is drg promotion.
Some drug manufacturers are advertising their products prior to FDA approval, in
clear violation of the law; some are promotig their products to physicians and
hospitals in a way that might violate the Medicare and Medicaid anti-kickback statute;
many are testing FDA' s commitment and vigiance in regulating their promotional
activities by callng their activities " exchanges of scientic inormation.

The OIG has categoried four tyes of payments and gis to physicians used by
manufacturers to promote prescription drugs: payments for physicians involved in
studies , payments for speaking engagements , payments for attending educational and


    Office of Inspector General,. " Implementing    User Fee at the Food and Drug
Administration: A Case   Study, " OEI- 12- 90- 02020 , July 199.
                                  , ," "




promotional programs , and unsolicited gi. Some of these practices are pure
promotion disguised as legitiate business arangements. We believe that these            tyes
of practices deserve continued attention by FDA and the OIG.

Some manufacturers are promoting drgs before they are approved by FDA Recent
work by our offce revealed that one drug company was improperly            claig
                                                                              that an
experimental animal drug is safe and effective , prior to its approval by FDA 10 To
combat these tyes of practices , FDA has established a hotlie for whistleblowers and
is augmentig staff in the division of drg advertising and labelig to oversee drg
promotion.

TH FDA MUST CRTE                  AN       USE   RELE DATA MAAGEM
SYST.
The need for FDA to establish a system of strict accountabilty, in which management
oversight plays a key role , was briefly mentioned earlier in ths report.      Using data
systems which track activities and results ca help achieve ths goal.

Ge Dr Mangem InfoTmn
Our fidings in auditig the generic drg approval process , in which managers were
not monitorig assignents and the progress of chemists in conductg their reviews
demonstrates the vuerabilties which result from poor, nonexistent, or unused
management inormation systems. Our report documents that the management
information system in the generic drug dision does not produce report FDA needs
to effectively monitor day-to- day operations or to detect indications of possible
manipulation of the generic drg review and approval process. The management
inormation system also does not provide specic inormation for effciently and
effectively using curent staf resources or adequately forecatig futue sta resource
needs. ll The FDA is attemptig to use the management inormation sytem
project resource needs but to date has not corrected the other noted vuerabilties.




     0ffce of Inpector General        Promotion of Prescription Drugs through Payments and
Gifts " OEI- Ol- 90-   000, Augut 1991.
      0ffce of Inpector General, " Nee      for the Food and Drug Admitration to Review
Possible Improper Pre-approval Promotional Activities " A- 15-91-007 , May 1991.

     Offce of Inspector General Review of the Food and Drug Admitration s Generic
Drug Management Information System " A- 15-89- 003 , July 199.
                     , "              , "




The Edwards Commssion confed our fidings , concluding that "information
relating to performance , workload activity trends , and resource allocations is uneven
and not consistently available. "12 Ths situation must be corrected.

FDA' S Drg    Regn an Li                    Sy
In addition to creatig information systems which provide    managers with important
information on internal matters , it is essential that FDA have in place data systems
which provide managers with accurate intellgence about regulated industry.
discussed earlier, our work in food safety revealed that some unown number of food
fis   are never subject to inspection because FDA does not know they exist. A recent
report just released by our offce documents problems with another data system, the
drug registration and listing system (DRL) maintaied by the agency. As a catalog of
all commercially distributed drugs , the DRL is used for a varety of purposes: it has
been used in the generic drug investigations to identi questionable products, for
example, and in support of Operation Desert Storm, it was used by the Defense
Department to identi antidotes for poison gas.


We found that the DRL is not complete or accurate: 8 000 product were on the
market but missing from the fie, and approxiately 1 400 products were in the fie
but off the market. Ths inaccuracy was due to deficiencies at FDA as well as
failure of drug companes to supply the needed inormation as requied by reguation.
FDA is now rectifg some of these problems by redesigng procedures , convertg
to a new computer system , and considerig penalties for manufacturers who do not
provide accurate data.

The Commssioner of Food and Drugs responded to concerns about the adequacy of
FDA' s data management systems in testiony before the Senate Commttee on
Governent afais , sayig, "Supportg FDA' s mission with state-of-ar inormation
systems is essential to support the complex process of decisionmakg thoughout the
agency. FDA has taken acton in some areas to introduce new data systems--such as
the initiative in the imported foods area to li FDA sytems with those maitaed
the U. S. Customs Servce-but much more is left to accomplish in ths area. As an
indication of this need, the Edwards Commssion recommended imediately reviewig
information system needs and systems upgrading.




    Adviory Committee on the Food and Drug Admitration , U. S. Department of Health
and Human Servce Final Report of the Adviory Commttee on the Food and Drug
Administration, " May 1991 , p. 33.

      0ffce of Inspector General The FDA' s Prescription Drug File " (draft), OEI-03- 90­
02300 , July 1991.
                               CONCLUSIONS

. In connection with its many audits , inspections , and investigations of FDA, the OIG
  has made numerous specifc recommendations for correctig identifed problems. The
  OIG is monitoring FDA' s efforts to implement the recommendations found in the
  origial reports. In general , we believe that FDA must . act to


        improve its product approval systems to ensure equitable and fair treatment of
        applicants , including the development of "fist- , fist-out" policies , and
        standard operating procedures and guidelies for    reviewers;

        obtain necessary enforcement authorities , such as embargo authority, subpoena
        authority, and civi monetary penalty authority, and use those authorities to
        encourage compliance with the Food , Drug, and Cosmetic Act and punsh
        violators;

        conduct appropriate systems analysis to ensure that usefu inormation systems

        are in place to provide FDA management with necessar inormation to track
        workload and workfow, and to ensure that inormation being obtaed from
        reguated industries meets FDA monitorig needs for tiely, accurate
        information;

        identif resource needs ,   delegatig authorities to the States where appropriate
        and relyig on user fees to supplement budget authority and augment resources
        where necessary; and

        develop a full-scale   crial investigative capabilty with traied, experienced
        investigators.

  We believe that these steps are essential if FDA is to meet its numerous statutory
  responsibilties and meet the challenges of the comig decade.
                                                      , "




                                APPENDIX A

                              OIG REORTS CONCEG FDA

 Vulnerabilties in the Food and Drug Admistration s Generic Drug Approval
Process " A- 15- 89-00051 , August 1989.

 Perspectives of Drug Manufacturers: Abbreviated New Drug Applications " OEI- 12­
90- 00770 , February 1990; Offce of Inspector General Perspectives of Drug
Manufacturers: Investigational New Drug and New Drug Applications " OEI- 12- 09­
0771 , February 1990.

 Evaluation of Drug Master File Reviews by the Food and Drug Admstration, " A­

15- 90- 00004 , July 1991.


 Internal Control Weakesses in the Food and Drug Admstration s Medica Device
510(k) Process " A- 15- 89- 00065, July 199.

 FDA Medical Device Reguation: From Premarket Review to Recall " OEI- 09- 90­
00040 , February 1991.

 FDA Food Safety Inspection " OEI- 05- 90-01070 , August 1991.

  Implementing User Fees at the Food and Drug Admstration: A Case Study, " OEI­
. 12- 90- 02020 , July 1990.

 Promotion of Prescription Drugs through Payments and Gif,"       OEI-01- 90-00480
August 1991.

 Need for the Food and Drug Admistration to Review Possible Improper Pre-
approval Promotional Activities," A- 15- 91- 0007 , May 1991.

 Review of the Food and Drug Admistration s Generic Drug Management
Information System " A- 15- 89- 00063 , July 1990.

 The FDA' s Prescription Drug File," (draft), OEI-03- 90-02300 , July 1991.




                                            A ­

